SUPREME COURT OF THE UNITED STATES

No. 21-5305
screenees nbansiiihtnetnip sh nineteen 4
ALEJANDRO ROSALES-GONZALEZ,

Petitioner,

Vv.

UNITED STATES OF AMERICA,

Respondent.
i ithaca X

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h),
I certify that the corrected brief contains 5131 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is

true and correct.
Executed on this 18" day of October, 2021.

Melissa Pickett

Sworn to and subscribed before me this 18" day of October, 2021.

WMari'oena Pregl v6

MARIANA BRAYLOVSKIY

Notary Public State of New York
No. 01BR6004935

Qualified in Richmond County
Commission Expires March 30, 2022

#308182
